UNITED STATES SUREME COURT
PETITION FOR RE HEARING
CASE NO.: 20-1330
Petitioner is a litigant in Pro-Se who upon the Supreme Court’s Denial of her original Writ of
Certiorari, now invokes U.S Supreme Court RULE NO. 44 for the purpose of re-hearing this
case. Petitioner, June M. Domino further certifies that this Petition is being presented in good
faith and not for delay. This request for re-hearing is based on FIVE (5) specific grounds. Said
grounds are limited to intervening circumstances of substantial and/or controlling effect which
were not previously available for presentation to the Court. They are as follows:
1) Conspiracy to Engage in Racial Discrimination in a Work Environment.
The evidence provides the Court with a conference call made by Defendants.which
describes {in the Defendants own voice] a detail discussion of the employer’s true intent
to prevent this African American Psychologist from gainful employment in the
marketplace. It is significant to note that Dr. Domino was not present on this conference
call.
2) Willful Violation of Constitutional Law by the U.S. Federal Eastern District
Court of California.
Although the Federal Eastern District Court alleges that Plaintiff s case could not be
heard because of a shortage of Judges currently assigned to the Federal Eastern District
Court, a review of the “Pacer Database” demonstrates that cases filed after my original
filing date continued to proceed and were heard by the Court. Here we see that the
Federal Eastern District’s explanation was misleading and conveniently designed to
suppress evidence and to further deny Plaintiff her Constitutional right to be heard by the
Court.
3) Legal Error & Interference.
Given the Constitutionality of Plaintiff s case and considering the geographical location
where Plaintiff sustained acts of blatant racism, this litigant in Pro-Se filled her case in
the United States Federal District Court of the Eastern District of California. The Court
however demonstrated legal bias by petitioning the “Northern District Court” to issue an
Order over my case that was pending in the Eastern District. Moreover, the siting Judge

RECEIVED |
JUL I 2 2021

ts

who made the ruling in favor of Defendant’s in. the Eastern District was at that time, the
same Judge who simultaneously was hearing the same Defendant’s Case in the Northern
District. Thus, the Northern District Judge protected Defendants from further legal
exposure in the Eastern District Court concurrently, by issuing an Order from the
Northern District to the Eastern District Court. At the very least the Northern District
Judge should have recused herself from my case. The fact that the Eastern District Court
Petitioned the Northern District Court is evidence of a clear and substantiated proof of
Legal Bias engaged in by both the Federal Eastern District Court and the Northern
District Court. It is by no accident that this misguided illegality took place at the onset of
this case. This is most relevant because it demonstrates that both the Eastern District and
the Northern District conferred and agreed to shut down Plaintiffs case before it ever
could be heard. Thus, providing Defendants with an unfair advantage which protected
Defendants from financial exposure.
4) Shadowing by the Attorney of Record.
It is important to note that the Defendant’s Attorney of Record “Never” appeared at any
proceeding held by the California State Personnel Board. Instead, the Attorney of Record
conducted business by shadowing behind an African American Employee with no legal
education nor license. This allowed Defendants to engage in unlawful activities that could not be
investigated by the California State Bar association. Shadowing behind an African American
Employee gave the false impression that this could not possibly be a violation of racism
primarily because the individuals carrying out the instructions were themselves African
American. This was a false pretense made to accomplish a false outcome. In doing so,
Defendants engaged in a Breach of Good Faith and Fair Dealing. Once again, we find a
violation of the rule of law and a covert attack on our Democracy.
5). Federal EEOC Dismissal.
Although Petitioner filed a formal Complaint with the Federal EEOC Office located at the U.S.
Eastern District Courthouse, Petitioner was received with hostility by all Analyst. The assigned
analyst failed to determine the legitimacy of a Cease-and-Desist letter which was issued to
Defendants Chief of Mental Health and served by Defendants own EEOC Officer. Defendants
EEOC Officer was previously located at Central California Women’s Facility. An examination

' 4

of the evidence indicates a copy of the citation and proves that the employer was issued during
regular working hours. This failure to diligently investigate Petitioner’s claim by the Federal
EEOC Office verifies the systemic bias towards this African American Plaintiff/Petitioner. As a
result, the Federal EEOC Office acted in Bad Faith which contributed to a miscarriage of justice.
Finally, Plaintiff remains disappointed, and deeply offended by the Court’s decision
primarily because all Court’s have denied Plaintiff an opportunity to present the evidence.
Evidence, evidence, evidence! That is the only basis upon which a case should be decided.
Anything less is a betrayal of our rule of law and an attack on our DEMOCRACY. Once again, I
respectfully request that you allow me to show you the evidence. To this date however,
Petitioner’s right to be heard before a Court of law has been denied making it impossible for
evidence to be presented. The lower Courts actions constitute an inside attack on our Democracy.
For all the reasons as stated herein, I respectfully request that this case be set for re-hearing
before the Supreme Court of the United States.
Respectfully Submitted,

June^M: Domino-In Pro Se

DATE:

